                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENER4.L
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A09070059                                                                         Page 1 of 1



         We received an allegation of falsification (false statements) made in two proposals' by a PI^.
         Specifically, the complainant3alleged the PI had made false statements in his progress reports for the
         proposals, by claiming his former student had done more research than the student actually did. After
         contacting the complainant and providing him with the relevant portions of the progress report from
         the two proposals that contained the detailed descriptions of the student's research, the complainant
         acknowledged most of the work had been done as described. However, in comparing the progress
         reports with the PI's proposals, the complainant thought more of the proposed research could have
         been done (the PI acknowledged significant delays in his progress reports). The complainant also
         interpreted the PI's reports as describing the work that was accomplished more broadly than it
         actually was.

         We concluded the basic work was fairly described by the PI in his progress reports, and the
         complainant's concerns were more accurately described as programmatic in nature rather than an
         allegation of falsification. We note the NSF Program Manager reviewed and accepted the PI'S
         project reports. For these reasons, this case is closed.




(SF 01G Form 2 (11/02)
